CERTIFICATE OF COMPLIANCE
NO. 20-1334
BRADLEY BOARDMAN, ET AL.,
Petitioners,
v.
JAY INSLEE, GOVERNOR OF WASHINGTON, ET AL.,
Respondents.
As required by Supreme Court Rule 33.1(h), I certify
that the Brief of Amicus Curiae Citizen Action Defense
Fund in Support of Petitioners contains 3,852 words,
excluding the parts of the brief that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on April 23, 2021.

Andrew R. Stokesbary
Counsel of Record

